<html>
<title> - BALUCHISTAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                              BALUCHISTAN

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 8, 2012

                               __________

                           Serial No. 112-121

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
72-791                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

C. Christine Fair, Ph.D., assistant professor, Georgetown 
  University.....................................................     9
Mr. Ralph Peters, military analyst and author....................    31
Mr. T. Kumar, director, International Advocacy, Amnesty 
  International USA..............................................    41
M. Hossein Bor, Ph.D., counsel, Entwistle & Cappucci, LLP........    51
Mr. Ali Dayan Hasan, Pakistan director, Asia Division, Human 
  Rights Watch...................................................    68

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on 
  Oversight and Investigations: Prepared statement...............     4
C. Christine Fair, Ph.D.: Prepared statement.....................    12
Mr. Ralph Peters: Prepared statement.............................    33
Mr. T. Kumar: Prepared statement.................................    43
M. Hossein Bor, Ph.D.: Prepared statement........................    53
Mr. Ali Dayan Hasan: Prepared statement..........................    70

                                APPENDIX

Hearing notice...................................................    96
Hearing minutes..................................................    97


                              BALUCHISTAN

                              ----------                              


                      WEDNESDAY, FEBRUARY 8, 2012

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2200, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call this hearing of the Oversight and 
Investigations Subcommittee of the House Foreign Affairs 
Committee to order.
    Today's hearing is about a part of the world and a people 
that most Americans know nothing about, Baluchistan, an area 
inhabited by the Baluch people who trace their history back for 
centuries. Baluchistan deserves our attention because it is a 
turbulent land marked by human rights' violations committed by 
regimes that are hostile to America's interests and values. It 
holds a very strategic location in an area of intense 
international rivalries.
    Baluchistan comprises about 800 miles of coast at the head 
of the Arabian Sea between Iran and India and runs inland to 
southern Afghanistan. The Baluchs are a fiercely independent 
warrior people who have made their land a perilous land to 
invade--until natural gas and other mineral wealth was 
discovered there in this last century.
    During the 17th century the tribes were united in a loose 
confederation until the British incorporated the area into the 
Indian empire in the 19th century. The British, however, ruled 
the area with a light touch, leaving tribal chiefs in control 
of their everyday affairs.
    At the time of the partition of the British Raj into 
contemporary Pakistan and India back in 1947, the Baluch 
leaders voiced a desire for independence, but the Pakistan army 
took control of the area and forced the Baluch tribal chiefs to 
submit to the rule from Islamabad. The partition was based on 
religion, that partition between India and Pakistan, it was 
based on religion, rather than ethnic identity. The Baluchs are 
Sunni Muslims; and Pakistan, which was founded as an Islamic 
state, sees itself as the rightful ruler of all Muslims of the 
subcontinent.
    Pakistani ideology holds Islam as the first identity, but 
other people identify themselves and their interests in many 
different ways. In practice, Pakistan does not treat all 
Muslims equally. The Baluch have seen little benefit from the 
development of the natural gas, coal, gold, uranium, and copper 
that is produced in their province. Instead, the wealth is 
taken for the benefit of the dominant Punjabi elite that runs 
the country from Islamabad.
    Baluchistan remains the poorest province in Pakistan, even 
though it is the richest in natural resources. Attacks against 
natural gas installations and pipelines by Baluch insurgents 
are steadily increasing, and there have been assassinations of 
Chinese engineers who are helping Pakistan develop resources 
that will be shipped out of the province to benefit Islamabad 
and, of course, Beijing.
    The province's major port--let me pronounce it--Gwadar--the 
port of Gwadar has also been developed with the help of China 
and may become a naval base as well as a trade and energy 
transit center. Pakistan, however, is using this development to 
attract Punjabis into the province with the aim perhaps of 
outnumbering the local native Baluch.
    There was a major uprising in Baluchistan that ran from 
1973 to 1977, and the Baluch nationalists were inspired by the 
independence of Bangladesh, which was won in 1971. The Baluch 
insurgency, however, was ruthlessly crushed by Pakistani 
forces.
    After two decades of relative calm, insurgency broke out 
again in 2005. Islamabad has refused to concede any legitimacy 
to Baluch nationalism or to engage the Baluch leadership in 
serious negotiations. Its response has been based on brute 
force, including extrajudicial killings. The State Department 
and Amnesty International have condemned Pakistan for these 
murderous acts in Baluchistan.
    Across the border in Iran, there is a province, Sistan-
Baluchistan, which is dominated by the ethnic Baluchs. The 
mullah regime there has denied them their basic human rights; 
and, as in Pakistan, the Baluchs are denied proper education 
and economic opportunities. As in Pakistan, the resources of 
Sistan-Baluchistan are often used to support an elite in a 
distant capital, leaving the local Baluchs in both countries 
impoverished.
    The Governor of Sistan-Baluchistan is appointed by the 
mullah regime in Tehran. The Governor of Pakistan's Baluchistan 
is determined by a very complicated process which has some 
democratic elements, but the nationalist parties thought the 
system was so corrupt that they boycotted the elections in 
2008. I hope our witnesses can shed some light on how free and 
fair a political process in that area could be and give us some 
insights into what is going on there in terms of the political 
process.
    A low-level insurgency is in progress in Iran, as it is in 
Pakistan, with both countries reacting with the same brutal way 
of stamping out resistance. The Baluch in Iran are even more 
oppressed than those in Pakistan because Tehran is run by Shia 
theocrats who consider Sunni Muslims to be worse than heretics. 
Sunni Baluch clerics have been killed as part of an Iranian 
counterinsurgency campaign.
    South Asia cannot be understood purely in religious terms, 
as Muslim versus non-Muslim or Sunni versus Shiite. Group 
identities there are rooted in deeper tribal and village 
allegiances, with cultural attributes and historical 
experiences that go back for centuries. This hearing will 
explore what these mean and what they mean to the United 
States, what are the geopolitics of the region, the security of 
Pakistan, Iran, and their neighbors, how these things are being 
affected as well as the stability of that whole area.
    Also, we are looking at finding out about those things and 
how all of these factors and the dynamics that are at work play 
into the existing borders and aspirations of self-determination 
from all the perspectives that Americans hold and value. We 
believe in self-determination and democracy, believe the people 
have a right to speak up, but we are also very concerned about 
the stability of that part of the world and what this means to 
America and to the people there.
    So, as I say, this hearing, although I know that a lot of 
people saw this with trepidations, we are trying to understand 
something that I think we as American people have not paid 
attention to. So we need to learn things, like how to pronounce 
the port there and things like that. But even more than that, 
how to identify what forces are at work and who has some 
legitimate complaints and what America should be doing in 
reaction to the events there with the people there. So we are 
not here to--we are here to learn, and that is what this 
hearing is all about.
    [The prepared statement of Mr. Rohrabacher follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. With that, I would turn to my ranking 
member, Mr. Carnahan, for his opening remarks.
    Let me note, please don't applaud, please don't throw fruit 
at me, either. It would be nice--just because it takes up time, 
and we have got to be out of here in about an hour. So go right 
ahead.
    Mr. Carnahan. Mr. Chairman, I am glad to see you have a 
rousing ovation here today in this subcommittee hearing. You 
say that like someone who is used to being applauded and having 
fruit thrown at you.
    Mr. Rohrabacher. Oh, yes.
    Mr. Carnahan. It goes along with the territory.
    But, seriously, thank you for holding this hearing today. 
It is really very critical that we examine U.S. relations with 
Pakistan in multiple contexts like this.
    Mr. Chairman, since you last called a hearing this past 
summer on U.S. strategy in south Asia, it is fair to say that 
the U.S.-Pakistan relationship has continued to strain but 
remains absolutely a critical partnership. I would urge the 
Pakistani Government to step up its efforts to weed out terror 
activity within and along its own borders.
    Pakistan has significant challenges within its own country 
that have national, regional, and certainly international 
implications. One of the concerns and the topic of today's 
hearing is the situation in Baluchistan.
    This past month, a State Department spokesman said, ``The 
U.S. is deeply concerned about the ongoing violence in 
Baluchistan, especially targeted killings, disappearances, and 
other human rights abuses.''
    She further stated that the administration takes 
allegations of human rights abuses very seriously and that it 
had discussed these issues with Pakistani officials.
    While the administration is not here today to testify, I 
would urge U.S. officials to continue to bring these issues up 
in the course of our diplomatic discussions.
    With the significant investment of U.S. funding in 
Pakistan, it is Congress' job to make sure we are getting the 
return on the investment that our taxpayers deserve. We need to 
ensure that every dollar of U.S.-taxpayer-funded assistance is 
being used properly and in our interest. Vigorous oversight of 
all U.S. foreign aid is critical to the success of our programs 
there and is a key component to building infrastructure and 
capacity in Pakistan.
    However, the U.S. and international commitment to Pakistan 
is not enough. In the face of all its challenges, it is 
critical that Pakistan work to ensure the integrity of its own 
people and its own country, including Baluchistan; and as the 
U.S., the U.N., and NATO continue in Afghanistan, the Afghan-
Baluchistan border remains critical to ensuring that we are 
making decisions that move Pakistan, Afghanistan, and the 
entire region toward increased stability.
    Again, thank you, Mr. Chairman. I am looking forward to 
hearing the esteemed panel of witnesses that we have with us 
today.
    Mr. Rohrabacher. Thank you very much.
    Mr. Sherman, do you have an opening statement?
    Mr. Sherman. I do indeed.
    Mr. Rohrabacher. Go right ahead.
    Mr. Sherman. I want to thank the chairman of this 
subcommittee for allowing me to make a statement at this 
hearing. I have been on the full committee for 15 years and 
haven't had the honor to be a member of this subcommittee but 
have had a chance to see its work when reported to the full 
committee.
    My statement will focus not only on Baluchistan but the 
adjoining area of the Sindh province. Many Baluch live in the 
Sindh province, and to a great extent the Pakistani Government 
treatment of both these southern areas is similar.
    Pakistan-U.S. relations hit an all-time low last year when 
we found bin Laden in Abbottabad and perhaps later when 
allegedly the U. S. Embassy in Kabul was attacked by those who 
may have had the help of the ISI. That is why it is more 
important than ever for the U.S. to reach out to the various 
people who have been marginalized by the Pakistani Government.
    The people of Baluchistan and Sindh, their culture, 
language, and way of life are under attack and underrepresented 
from so many major government entities in Pakistan. Political 
activities defending Baluch and Sindhi rights are subject to 
arrest, disappearances, torture, and even killing.
    I believe the U.S. must reach out to these underrepresented 
historic segments of the Pakistani population. The Baluch 
people are culturally and traditionally regarded as secular and 
moderate, strongly influenced by the cultural traditions of 
Sufism. Both the Sindhis and the Baluch have a culture that I 
think will be consistent with American values; and a 
significant part of the people of Sindh, of course, are Baluch 
ethnically or have Baluch origins. The Baluch and Sindhis, 
including those Baluch living in Sindhi province, share the 
goal of government recognition of their cultural, political, 
and economic rights.
    Baluchistan is Pakistan's most underdeveloped province. It 
has the highest unemployment and poverty rates, the lowest 
quality of life when measured economically of any province in 
Pakistan. The road infrastructure is also poor; and, as the 
chairman points out, this is ironic because it is such a 
resource-rich area, especially as to natural gas. Islamabad's 
reluctance to give the Baluch people more autonomy is in part 
because they covet those resources. The Baluch gained a more 
equitable share of the region's rich natural resources, and 
that is another source of resentment.
    A third source of resentment is the Pakistani army 
cantonments that are being established in the Baluch areas. A 
small minority of Baluch have undertaken the armed struggle 
which was described by the chairman, and he also described its 
history.
    There is also, as the chairman described, Baluch on the 
Iranian side of the border waging a conflict against the 
Ayatollah regime.
    In this critical part of the world, we cannot afford to 
ignore the southern half of Pakistan, especially its population 
of Baluch and Sindhis.
    I had an opportunity last year to found the Sindh Caucus, 
and I would invite my colleagues to join. It is co-chaired by 
Dan Burton, Adam Schiff is an active member, and, as I have 
noted, the people of Sindh have a moderate tradition that is 
consistent with U.S. values and U.S. interests.
    For many years, the Pakistani Government has tried to 
impose just one language, Urdu, on the people of Pakistan, when 
in fact Sindhi is spoken by more people than Urdu. We need to 
reach out to the people of Sindh province and others who speak 
the Sindhi language, and we need to do so in the Sindh 
language.
    Right now, the Voice of America is broadcasting only in 
Urdu. That is why I want to commend our full committee for 
voting for my amendment to require that the Voice of America 
start broadcasting in the Sindh language, and now it is a 
matter of actually making that happen through the bureaucracy 
and through the Appropriations Committee. And I look forward to 
the day when that is a success and we are back here talking 
about the Baluch language.
    I believe my time has expired, and I yield back to the 
chair.
    Mr. Rohrabacher. Thank you very much.
    It is always great to chair a hearing where someone is more 
radical than I am on certain issues.
    Mr. Sherman. A rare occurrence, I might add.
    Mr. Rohrabacher. Actually, we see eye to eye on almost 
everything except he is a Democrat and I am a Republican.
    We also have another soft-spoken Member of Congress joining 
us, Louie Gohmert from Texas. I ask unanimous consent that he 
may sit in on this hearing and have the rights of all the other 
members of the committee.
    So ordered.
    Louie, do you have a couple minute opening statement for 
us? Go right ahead. Take 2 minutes.
    Mr. Gohmert. I will wait.
    Mr. Rohrabacher. Take 1 minute and get yourself----
    Mr. Gohmert. Thanks, Mr. Chairman. It is an honor to be 
here, and it is, I think, just wonderful that you have called 
this hearing, and I appreciate the interest I am hearing from 
our Democratic friends.
    But when you have a place in the world that was forced to 
be part of another country in 1948, as Baluchistan was, and 
then in that same country the people that are native to that 
area are harassed, what some of us would consider to be the 
human rights of dignity that every human being should be 
afforded are violated on a regular basis by the national 
government. And then further that government goes on to, 
whether it is official or unofficial, to furnish supplies, 
encouragement--what people I met with in forward-operating 
bases in Afghanistan last month tell me are the supplies, the 
IEDs, the weapons coming in to the Taliban, so many are coming 
from Pakistan and coming from the Baluchistan area.
    And as an editorial I was pleased to read in the Pakistan 
Daily Times noted, maybe it is time that we quit working so 
hard to support the Taliban in another country and concentrate 
more on our own country. And I think it would make the United 
States very happy to see that, it would make people of 
Afghanistan very happy that the Taliban was no longer being 
provided weapons to inflict harm on them, and it would make the 
Baluchs very happy, from my discussion with them, that they 
were allowed to live in peace without being subjected to 
horrors from their own government.
    So I am delighted you asked for this hearing, and I 
appreciate the opportunity to be here.
    Mr. Rohrabacher. All right. Thank you very much. No 
applause. Thank you very much, Mr. Gohmert.
    We have witnesses ahead of us. You will note that there are 
a couple more witnesses than we originally planned. Because we 
do know so little about this region, we didn't know who to 
invite, and there were some suggestions that were sent to me 
over the Internet that we maybe should expand it to make sure 
there is a little bit more representative cross-section of 
views, and that is what we did. So I want to thank whoever sent 
me those suggestions, and I think we are going to have a much 
richer hearing because of it.
    But we have a time problem, and the time problem is that 
they are going to call votes sometime in the next hour, maybe 
even \1/2\ hour or 45 minutes, so I am going to hold each one 
of you to the 5-minute rule for your testimony, and I am sorry, 
but I am going to have to, because otherwise there won't be any 
time for questions and answers at all.
    We have with us on the panel Christine Fair, assistant 
professor, Center for Peace and Security Studies at the Edmund 
Walsh School of Foreign Service in Georgetown University. 
Previously, she has served as a senior political scientist with 
RAND Corporation, a political officer to the United Nations 
Assistance Mission to Afghanistan, and as a member of the 
International Institute for Strategic Studies, the Council on 
Foreign Relations, and serves on the editorial board of Studies 
in Conflict and Terrorism.
    I will introduce each one just prior to their testimony, 
and we know how soft-spoken you are, Dr. Fair, and how you 
never cause any controversy, but you enlighten everyone, so you 
may proceed. Five minutes.

  STATEMENT OF C. CHRISTINE FAIR, PH.D., ASSISTANT PROFESSOR, 
                     GEORGETOWN UNIVERSITY

    Ms. Fair. Sir, you are one of my favorite Republicans. We 
don't see eye to eye on a lot of things, but on the things we 
see eye to eye on, we see eye to eye.
    Thank you very much for giving me the opportunity to speak 
on this really important topic. As you noted, there aren't that 
many folks that know about Baluchistan, there aren't that many 
folks who know about Pakistan, and when this topic comes up, it 
is usually focused on the war on terror in Afghanistan. So it 
is nice to see that there is a hearing specifically dedicated 
to this particular issue.
    I have submitted a longer--very long written statement that 
I request become part of the permanent record.
    In that statement, I spend quite a bit of time trying to 
map out what we know geographically, historically, and 
demographically about Baluchistan. Unfortunately, we don't know 
a lot, because the Pakistan census is terribly out of date, and 
unfortunately the process of a census in Pakistan has become 
very politicized.
    But what we do know is that the Baluch ethnic group is the 
largest ethnic group in the province. The exact numbers are 
perhaps unknown. But we also know that, by any measure of human 
development--and I put a few, just a sample in my testimony--by 
any measure of human development, by any development, any 
measure of economic development, Baluchistan always ranks below 
the other provinces in Pakistan, with the perhaps exception of 
FATA.
    In addition to that, as you note in your opening statement, 
Baluchistan is actually a very large producer of resources. 
Yet, ironically, even though Baluchistan produces about 40 
percent of the country's gas, very few Baluch actually take 
advantage of that gas because there is no infrastructure for 
them to do so. So when you meet with folks from Baluchistan, 
they will tell you the only time they get gas or electricity 
hook-ups is when a cantonment comes to town. The army will 
counter that it is very hard to spread that infrastructure 
throughout a province which accounts for about 5 percent of 
Pakistan's population but about 40 percent of the terrain. So 
they will know that there are logistical challenges. Obviously, 
the truth lies somewhere in between.
    Baluchistan's appalling human rights record also stands 
before us. We have Human Rights Watch here. We have Amnesty 
International. Everyone knows about the forced abductions that 
are going on. Everyone knows that Baluchistan has been a very 
restive province from day one. Many Baluch didn't even want to 
join the union of Pakistan.
    In that sense, it shares a lot of similarities to Kashmir. 
Kashmir was also forcibly annexed, and many of the challenges 
that we see happening in Pakistan vis--vis Baluchistan could 
also, I think, be said in some measure about the situation in 
Kashmir.
    Curiously, what I find very puzzling about Pakistan is that 
over the last--well, since 2004, the state has been waging a 
pretty vicious counterinsurgency campaign against elements of 
the so-called Pakistan Taliban, and it has generated quite a 
bit of outrage among Pakistanis. Yet the last six decades of 
episodic military use of force against Baluch insurgents 
doesn't really cause that kind of outrage at all.
    In fact, in my written statement, I provided a link to a 
very fascinating BBC documentary that was called Ko Jaanta Hai, 
Who Knows Baluchistan? They went around Lahore and they asked 
folks, do you know what Baluchistan is? Can you name a city? 
And it was actually appalling how few people knew where the 
province was, that there was an insurgency, that people 
couldn't even name the major city of Gwadar.
    So you have this very interesting combination of the 
ability of lethal force but yet you have very few people in 
Pakistan who know about it.
    A second related problem is that, because it has so few 
people and because the representation in the National Assembly 
is based upon population, it means that Baluchistan can never 
have any heft in the National Assembly. While it has equal 
representation in the Senate, as I am sure you know in Pakistan 
the Senate has very little power.
    Now, while we focus upon the abductions and the state-
sponsored human rights abuses, which are numerous, I do want to 
point out, though, that this isn't the only kind of violence 
which is happening in Pakistan or in Baluchistan. So the forced 
disappearances I am sure my colleagues from Amnesty and from 
Human Rights Watch will dilate upon them. But there are also 
targeted killings that are unfortunately done by some Baluch.
    I understand the sentiment that there is this perception 
that they are being colonized by the Punjab, but, 
unfortunately, there is a past dependency problem. Baluchistan 
has a massive problem with education, right? So how do you 
produce teachers from a province that doesn't have, on the 
main, people who are adequately educated to produce the folks 
who can subsequently become teachers? So there is a need for 
teachers to come from other provinces in Baluchistan, but--I am 
sure Human Rights Watch have written an entire report about 
this--many of those teachers have been singled out because they 
are Punjabi. It is not just teachers. It is also providers of 
other human services. Police in particular are very vulnerable.
    So I only--I don't only want to draw attention to the 
targeted killing of one community by state forces, but in fact 
we have a lot of acts of violence converging in Baluchistan.
    Another one that doesn't get a lot of attention is also the 
sectarian violence. Shia have paid a heavy price in Pakistan, 
and we can continue to see this kind of violence happening in 
Baluchistan.
    Mr. Rohrabacher. I am afraid your 5 minutes is gone.
    Ms. Fair. There we go.
    Mr. Rohrabacher. We will come back. Hopefully, we will have 
time for some questions and answers.
    And I would also suggest, if the panel would like to, 
during their 5 minutes, express something about what has 
already been said, please feel free.
    [The prepared statement of Ms. Fair follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. We have with us Ralph Peters, a writer, 
strategist, media commentator, retired military officer. He is 
the author of 28 books and approximately 1,000 columns, 
articles, and essays. Being a writer, I can appreciate that, 
admire that.
    He served in the U.S. Army for 22 years as an American--we 
are grateful for that service--first as an enlisted man, then 
as an officer, retiring shortly after his promotion to 
lieutenant colonel. As a soldier, Ralph served in the infantry 
and military intelligence units before becoming a foreign area 
officer specializing in Russia and surrounding states.
    He also served in the Executive Office of the President. 
Special assignments took him to Southeast Asia, Central Asia, 
to the Caucasus, to Pakistan, and Burma. He has traveled 
extensively in the Muslim world as well as studying in India, 
sub-Saharan Africa, and Indonesia. He has reported from various 
conflict zones, including Iraq, Israel, and sub-Saharan Africa.
    Mr. Peters, you have 5 minutes, and we look forward to 
hearing your testimony.

   STATEMENT OF MR. RALPH PETERS, MILITARY ANALYST AND AUTHOR

    Mr. Peters. Thank you, Mr. Chairman. I appreciate this 
opportunity, and I am sure you will agree with me, as will 
Congressman Carnahan, that such an important problem cannot be 
approached in a partisan manner, and we ought to act as 
Americans with our American values and bring those to bear, not 
an ideology of any kind.
    Let us start with the incontrovertible fact and that is 
that Baluchistan is occupied territory. It never willingly 
acceded to Pakistan, does not now wish to be part of Pakistan. 
If a plebiscite or referendum were held tomorrow, it would vote 
to leave Pakistan, as would every province and territory west 
of the Indus River.
    We have a fundamental problem in that we refuse to see 
Pakistan for what it is. We imagine or pretend that it is a 
legitimate state, really in our own image, a democracy, but it 
is a democracy only as long as its military rulers allow it to 
be a democracy.
    It is, in fact, a miniature empire, a last artifact, along 
with a few other countries around the world, of the imperial 
age, with artificial borders which we defend, as we do 
elsewhere, and I find it a travesty that our State Department 
obsesses on the inviolability of borders around the world drawn 
at Versailles or in Berlin in the 1880s or in the late 1940s.
    How is it in the year of our Lord 2012 we send our troops 
to bleed or die to defend the residue of the European world 
order? And let me be clear. I do not argue that we should 
actively campaign militarily to change every border in the 
world. I argue that when the train is coming down the tracks 
toward you, you are wise to step off the tracks.
    In the last two decades since the end of the Cold War, the 
United States of America, the greatest force for freedom in 
human history, every war and conflict in which we have engaged 
has been triggered by or exacerbated by these flawed European 
borders. How can we send our soldiers and Marines and Navy 
corpsmen to die for that? That is not who we are.
    What is Pakistan? Pakistan is bisected by the Indus River. 
To the east of the Indus River is metropolitan, core Pakistan, 
the Punjab, and to a great extent the province of Sindh. It is 
the world of the subcontinent. It is a different civilization 
from that west of the Indus River.
    West of the Indus River in the occupied territories you 
have the culture of central and mid Asia. When you cross the 
Indus River either way, even the food is different. And we look 
at this occupied territory of Baluchistan specifically where 
people who simply yearn for fundamental freedoms, for the right 
to determine their own future, whether or not they have a 
battery of qualified teachers ready to go. We must admire their 
determination to sacrifice everything against enormous odds in 
Pakistan and Iran for the simple right to say, I am a Baluch; I 
will decide my own future.
    Instead, we face--we support Pakistan, their oppressor, a 
state that actively supports and arms terrorists and insurgent 
movements in Afghanistan that kill and maim our own soldiers. 
The Pakistani Government is not our friend. It is not the 
friend of the Baluch or the other subjugated peoples west of 
the Indus River. The Durand line, of course, which divides 
Pakistan and Afghanistan is artificial. It divides people who 
want to be together.
    Mr. Chairman, my time is running out, so let me simply say 
this last thing.
    Two hundred years ago, one of our greatest Presidents faced 
a problem. The Barbary pirates refused to let our ships pass in 
peace, so we paid tribute money to let our goods pass. Thomas 
Jefferson put a stop to that.
    Today, we are paying tribute money again, this time to the 
Pakistani pirates to let our goods pass to Afghanistan. Mr. 
Chairman, I am looking for a Thomas Jefferson.
    [The prepared statement of Mr. Peters follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much, and I am looking for 
William Eaton myself. That was pretty deep there.
    Mr. Peters. Mr. Chairman, I am trying to be----
    Mr. Rohrabacher. All right. Thank you very much. I 
appreciate you softening your remarks and making them so nobody 
really knows where you are coming from. Great.
    Both of our witnesses have been very tough, and that is the 
way you want to be. You want to be up front. Because if people 
are hiding what their real beliefs are, trying to couch it, we 
are never going to--people aren't going to understand what the 
reality is if we are trying to not make other people angry, but 
we want to make sure all of us are educated to that.
    The next witness is Mr. T. Kumar. Mr. T. Kumar, who I know 
very well, an advocacy director for Asia Pacific, for Amnesty 
International, who is a persona here on the Hill and a champion 
of human rights. He has worked in several Asian and African 
countries and served as a human rights monitor in many Asian 
countries as well as Bosnia, Haiti, Guatemala, South Africa.
    Kumar is frequently lecturing at the Foreign Service 
Institute where U.S. diplomats are trained and often testifies 
before the United States Senate and House of Representatives. 
He holds an advanced degree in law from the University of 
Pennsylvania Law School, and you may proceed.

 STATEMENT OF MR. T. KUMAR, DIRECTOR, INTERNATIONAL ADVOCACY, 
                   AMNESTY INTERNATIONAL USA

    Mr. Kumar. Thank you very much, Chairman.
    Mr. Chairman and Members of Congress, when I saw the 
announcement about having a hearing on Baluchistan, it came 
back to Afghanistan during the time when Afghanistan was 
forgotten by the entire world. Chairman, you understand what 
happened after the collapse of Soviet Union.
    The people of Baluchistan were going through nightmare for 
the years, torture, disappearances, extra-judicial executions, 
but the world refused to look at them. Leave alone Pakistanis. 
Even the Pakistani civil society was limited--there were some 
exceptions--did not speak up about the plight of Baluchis that 
they wound up going--massive disappearances. Disappearance 
means to kidnap people or arrest people and never be heard 
again.
    Hundreds disappeared. We have documented recently--we are 
talking about after the so-called democracy came to Pakistan--
almost 250 disappearances in a year's time. And extra-judicial 
executions, torture.
    So the brutality was continuing in Baluchistan, despite the 
fact that it is just next door to Afghanistan, where U.S. has 
enormous interest and Pakistan, again, enormous interest. So on 
that note, we are pleased and honored that you are holding this 
hearing to bring attention to the plight of Baluchistan.
    What's happening to Baluch people? It is a kill and dump 
operation. It is a terror mechanism that the Pakistani military 
and the intelligence officers who use to terrorize the local 
population. It may be for a political reason because some 
people, maybe a majority of Baluch, may be asking for 
independence.
    By the way, on that note, Amnesty International, as a human 
rights organization, does not take position on whether a 
country is independent or not.
    But, having said that, they brutalize the population 
because the population wanted some opening in their political 
aspirations. Then when people speak up, the weapons that were 
used against them were, unfortunately, manufactured in the U.S. 
and given to by the U.S.
    A couple of years ago when the disappearance was high 
rocketing in Baluchistan, the Baluchistan Governor was here. So 
I asked him actually at USIP, I asked him where the--whose 
weapons are you using? He said, oh, it is American weapons. The 
reason is no conditions were put on it.
    So it is a matter of principle that Congress can put some 
requirement that no U.S. weapons should be used in Baluchistan 
in abusing its own citizens. That is something you can do. You 
won't get permission from the State Department.
    Speaking about State Department, they were in sleep for 
years, not only now, earlier on as well. When Senator Baloch, 
Sana Baloch, was invited again to USIP, they refused to give 
him visa to come and testify. He is a Senator, elected Senate. 
So there are concerns that even U.S. over the years have 
ignored for different political reasons.
    So now the time has come through this hearing and through 
other mechanisms. We hope the State will also--the 
administration will also change its policy, not about any 
political questions there but primarily talking about the 
plight of Baluchis and how to stop abuses that are happening 
against them.
    There are also other people who are involved in abusing the 
human rights in that area. One group is, obviously, the group 
that fight for independence. These are Baluch nationalists. 
They were the prime victims of abuse. At the same time, there 
are reports that they also targeted killing of Punjabis and 
others.
    So it is a time that Baluch population examined themselves, 
that since you have been abused, you know the value of human 
rights. You should speak up and to stop the abuses against 
anyone. It could be anyone.
    I know my time is up. Thank you very much.
    [The prepared statement of Mr. Kumar follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Your time is up. That was left on a good 
note--no, no, don't applaud--because challenging people who 
want to have their human rights respected, challenging them to 
respect human rights of others is a really important point, and 
you just made that.
    We have two other witnesses, and then we will go into our 
questions and answers.
    We are joined, in the meantime, by another Member of 
Congress, a champion of American commitment to freedom and 
democracy, a real patriot from Texas, and a man of the law, 
Judge Poe. In fact, both Congressman Gohmert and Judge Poe are 
both former judges, and so when we talk about the law and the 
violations of human rights, they shine out with their expertise 
as well as their passion. So we are very happy to have you join 
us, Your Honor, and we will proceed with the witnesses right 
now so we can get through this and then go on to questions and 
answers.
    Mr. Rohrabacher. We have Dr. Hossein Bor, a lawyer active 
in facilitating trade, investment, and project development 
between American corporations and their counterparts from Gulf 
countries.
    Dr. Bor previously served as an adjunct professor of law at 
the Catholic University of America and was the energy and 
economic adviser to the Embassy of Qatar in Washington, DC, 
from 1982 to 1998. He has written extensively on various issues 
relating to the Middle East, including a treatise on Iran and 
nationalities. He holds a Ph.D. and degrees from both American 
University and Washington University.
    And you may proceed, Dr. Bor.

   STATEMENT OF M. HOSSEIN BOR, PH.D., COUNSEL, ENTWISTLE & 
                         CAPPUCCI, LLP

    Mr. Bor. Thank you very much, Mr. Chairman. This is a great 
honor and pleasure to speak on behalf of the Baluch. I am of 
course an American Baluch myself, and thank you for the 
opportunity.
    As you know, Baluchistan is the most really--the Baluch 
people are the most persecuted, oppressed, and neglected 
peoples in the Middle East and South Asia; and of course you, 
Mr. Chairman, gave a very good overview of Baluch history. The 
only thing I can add, Baluch look at their history in one term. 
Baluch era or Baluch Doura means the era when the Baluch ruled 
themselves, and their institutions and values were supreme in 
Baluchistan, and the post-Baluch era, which is the era of 
colonialism and, of course, the subsequent division and 
forceful incorporation into Iran and Afghanistan and, of 
course, Pakistan.
    And, of course, before the advent of colonialism you should 
also notice that the Baluch were independent. Like Europe, 
there were several feudal states, and in many eras also in the 
14th, 15th century you had a large confederacy of Baluchi state 
and Durand, extending from Kirman in the east, in Persia, to 
the Indus Valley, and that is also the current boundaries of 
Baluchistan as a whole.
    And, of course, as you well know, Baluchistan was divided 
by the British into three parts. Goldsmid Line, drawn in 1871 
by the British colonial officers, divided Baluchistan between 
Iran and British India; and of course the Durand Line, drawn 
also by the British in 1894, divided Baluchistan between 
British India and Afghanistan. And of course Baluch, ever 
since, they have been struggling to regain their lost freedom 
to reassert the Baluch control over their homeland, 
Baluchistan, and to preserve their language and culture.
    And the Baluch have never accepted or recognized either the 
Goldsmid Line, dividing the Baluch between Iran and Pakistan, 
nor the Durand Line, separating north and Baluchistan. This is 
reflected in four insurrections by the Baluch against Pakistan 
in 1948, 1958, 1973, and 2005 insurgency, which is continuing 
and growing in strength each day. Like Baluch, Afghanistan and 
nationalist Pashtuns in Pakistan also do not recognize the 
Durand Line.
    Of course, my colleagues, they well articulated the plight 
of human rights in Baluchistan and the egregious violation of 
Baluch human rights by Pakistani army and the Pakistani 
Government. The only thing I can add, according to a report 
published by the Asian Human Rights Commission on January 31st 
last month, it says that the extrajudicial killings of 
disappeared persons in Baluchistan include 23 bullet-riddled 
bodies found during the first month of this year, during 
January, 56 mutilated bodies during the last 6 months, and 271 
bodies since July, 2010. That tells you about the extent of the 
brutality. And according, of course, to Baluch sources, the 
figures are much higher, and since 2001 about 4,000 Baluch have 
been--have disappeared, and this is a continuing problem, and 
that is one of the main reasons that the Baluch----
    Mr. Rohrabacher. Excuse me, you said from 2001 to the 
present date how many?
    Mr. Bor. 4,000.
    Mr. Rohrabacher. 4,000 people have disappeared.
    Mr. Bor. Yes, sir.
    And, of course, this is one of the main impediments to 
Baluch leaders negotiating with weak civilian government in 
Pakistan. Until these issues are resolved to the satisfaction 
of the aggrieved Baluch families, no Baluch leader would dare 
to negotiate with the Pakistani Government.
    And of course they also--as they stated, Baluchistan is one 
of the most richest lands in the world--oil, aluminum, gold, 
coal--but it is exploited for the benefit of non-Baluch in 
Punjab. And even though the Baluchistan account for 30 percent 
of the natural gas exploited in Pakistan, Baluchistan saves 
only 17 percent. The rest, even the British colonialists were 
not so greedy and brutal, and that is why the Baluchistan 
remain the most--the least developed region in Pakistan. There 
is no really basic industries to talk about. And of course that 
is one of the main reasons for the ongoing insurgency in 
Baluchistan.
    [The prepared statement of Mr. Bor follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. That is the end of your 5 minutes right 
now, so we will have to move on during the questions and 
answers.
    By the way, all of--with unanimous consent, the entire--
your entire statements will be put into the record. So when you 
get a record of the hearing, your entire statement will be in 
the record.
    We now turn to Ali Dayan Hasan. He is the Pakistan director 
of Asia division of Human Rights Watch. Before taking over as 
Pakistan director, he served as Human Rights Watch for south 
Asia as a researcher and that he did since 2003 and specialized 
in Pakistan.
    Before joining the Human Rights Watch, Hasan was a senior 
editor at Pakistan's premier independent political news 
monthly, the Herald; and during 2006-2007 he was also a 
visiting scholar from Oxford, University of Oxford, and has a 
BA from the London School of Economics and a master's degree 
from St. Antony's College in Oxford.
    And we welcome you, and you have 5 minutes.

   STATEMENT OF MR. ALI DAYAN HASAN, PAKISTAN DIRECTOR, ASIA 
                  DIVISION, HUMAN RIGHTS WATCH

    Mr. Hasan. Thank you, Mr. Chairman, for allowing me this 
opportunity.
    I have listened with care to what my colleagues--fellow 
witnesses have had to say. I would like to clarify at the 
outset that my testimony is based on my experiences as someone 
who has researched extensively on human rights abuses in 
Baluchistan, often on the ground in the province itself.
    Now, at the outset, because there has been this question of 
independence that has been raised, I want to clarify that Human 
Rights Watch, as an international human rights organization, 
takes no position on this particular issue of independence. We 
understand that Baluchistan is an internationally recognized 
part of Pakistan, and we expect the Pakistani Government to 
adhere to all human rights protections within the Pakistani 
Constitution and as mandated by international law.
    We have also found the Pakistani state, particularly the 
military, entirely lacking in this department. Baluchistan 
presents a hydra-headed conflict situation. There are multiple 
actors perpetrating violence in there, but the engine of human 
rights abuse, no doubt, is the Pakistani military, 
paramilitaries, and intelligence agencies. They have run, 
particularly since 2004, a campaign of enforced disappearances 
where at least hundreds of Baluch nationalists have 
disappeared.
    In the last 1\1/2\ years, we have seen targeted killings 
increase, and something between 200 and 300 Baluch opponents of 
the Pakistani state have been found killed, and of course 
torture and illegal detention by the military and 
paramilitaries and intelligence agencies are commonplace. This 
is an absolutely appalling situation, even by Pakistani 
standards, and certainly when you are operating in Baluchistan 
you do see that the military in many ways behaves like a brutal 
occupying military. That is its behavior.
    All of this is a very serious problem. I would, however, 
point out that in the latest spike, the issue of disappearances 
became commonplace in Pakistan, and in Baluchistan in 
particular, because of the license provided by the U.S., the 
U.K., and other powers in the context of the war on terror 
where the disappearance and legal detention of Taliban and Al 
Qaeda suspects was green-lighted effectively by the U.S. This 
gave the Pakistani military carte blanche, if you will, to 
extend such abusive operations to its own political opponents, 
which include Baluch nationalists.
    Having said that, there are also multiple abuses--though of 
course I must clarify that there is no comparison between the 
abuses perpetrated by the state and other actors--but there are 
abuses that we have documented by Baluch nationalist militants, 
particularly attacks against education personnel and against 
other non-Baluch residents of the province.
    Now, non-Baluch residents of the province are not a small 
minority. We are talking of--although there is contentious 
figures because of a lack of census--something about 40 percent 
at least of the population of Baluch.
    Mr. Rohrabacher. Did you say 40 or 14?
    Mr. Hasan. Four-zero.
    Mr. Rohrabacher. Four-zero.
    Mr. Hasan. Four-zero percent of the population of 
Baluchistan--this is an approximation--are non-Baluch at least. 
So this is a very, very complex situation now. Non-Baluch, 
particularly Punjabi settlers and Urdu-speaking settlers in 
Baluchistan, are living equally in fear of their lives because 
of fear of attack from Baluch nationalists.
    Finally, there is the issue of religious militant groups, 
particularly Sunni militant groups, that are attacking the 
Shia, largely Hazara, but Shia in general. And these militant 
groups often do act, it is alleged and widely believed, at--in 
conjunction with or at the behest of the Pakistani military, 
but they also act independently. The basic problem is that if 
the Pakistani state takes Baluchistan seriously, it must 
enforce rights respecting rule of law in the province. It has 
abjectly failed to do so, and this is creating a human rights 
crisis across Baluchistan.
    [The prepared statement of Mr. Hasan follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Good. That is a good point to end your 
testimony on.
    I want to thank all of you for participating today. There 
will be votes coming up soon, so we want to try to get involved 
with some questions right away. I will just do a few, and the 
ranking member, and we will make sure that other congressmen 
get a chance as well.
    I think one point, I like to read history. I mean, I like 
to read history, and Mr. Peters was expressing--was talking 
about Thomas Jefferson and such. I agree with you, Dr. Peters, 
or Mr. Peters, I should say, or Colonel Peters. I think that 
our Founding Fathers and most of the people who built this 
country would be turning over in their grave if they found out 
that we were sending American military personnel in order to 
maintain the colonial boundaries that were established by the 
people we had to fight in order to become independent.
    And many of the conflicts that we have throughout the world 
today--I agree with you, Colonel Peters--that can be traced 
right back to the colonial era with decisions that were made by 
colonial powers. And then we end up in conflicts like this, and 
especially if the United States intervenes in order to maintain 
a status quo of borderlines, which is what we seem to be doing. 
This is not consistent with our national interests or our 
traditions at all, and I think America needs to reexamine this 
issue and have a heartfelt debate internally about what should 
motivate America to get involved.
    But one thing is for sure. When someone is helping kill 
Americans or threatening to set up some sort of dictatorship 
over--for whatever cause, Americans, we should not be on their 
side in helping them. And I think that what broke--the straw 
that broke the camel's back was when we found out that not only 
has Pakistan been arming those Taliban and other radicals that 
have been murdering American soldiers in Afghanistan, but they 
have given aid and comfort and safe haven to the man who 
masterminded the slaughter of 3,000 Americans. And anybody who 
doesn't believe that they did that is an irrational optimist 
about what is going on down there.
    I think that at that point we need to understand that we 
cannot back up everything that Pakistan does simply because 
something might disturb the lines that were drawn so long ago 
and that would create instability. With that said, thank you.
    Would you like to comment on that?
    Mr. Peters. If I may.
    Mr. Rohrabacher. But you only have about 20 seconds to do 
it.
    Mr. Peters. Mr. Chairman, you like to read history. Today, 
you are making history.
    Not only does Pakistan facilitate terrorism in Afghanistan 
while playing triple and quadruple games, but we shouldn't lose 
sight of the fact that Pakistan has made us complicit in 
terrorism against India. Because Pakistan, using the nuclear 
red herring, knows that they have been able to sponsor attacks 
against New Delhi, against Mumbai, and knowing we will step in 
and stop India from retaliating. Imagine how different it would 
be if the Pakistanis didn't think they could count on us to run 
interference.
    Mr. Rohrabacher. I think that is a good point.
    Let me just end my questions and answers with this thought, 
and it has been expressed by our witnesses. If we are going to 
be taken seriously when we talk like this we have to be 
consistent and we have to be honest.
    And I certainly--whether it is the Sindh Province or 
Baluchistan or what is going on in the Baluch Province in Iran 
or what is going on in the Baluch Province in Pakistan, people 
have a right to their self-determination, which is what is 
being testified today. Let's note, I think that people of 
Kashmir also have a right to their self-determination, and I 
think Dr. Fair might want to comment on that.
    Ms. Fair. I am going to focus my comments upon our 
relationship with Pakistan.
    Mr. Rohrabacher. 30 seconds, then we have got to move on.
    Ms. Fair. But I do want to say one thing. The Leahy 
amendment. For the last several years, I have been looking at 
our relationship with Pakistan; and we have been very negligent 
in taking the Leahy amendment seriously. Whether we are looking 
at Pakistan abuses in FATA or Swat, talking to officials, we 
don't even populate the Leahy database or we have begun doing 
so quite late in the game.
    But the problem goes back to what Ali Dayan was saying, is 
that, in many ways, Pakistan's abuse of human rights served our 
interest. And so we are kind of coming to this late in the 
game, that we are trying to ask the Pakistanis to clean up 
their act after we have given them a blank check for about a 
decade, literally a blank check for about a decade.
    Mr. Rohrabacher. That is correct. I think we have been 
manipulated for a longer than that.
    We have about 8 minutes before we have to be on the floor 
for a vote. Would you like to ask a couple of questions?
    Mr. Carnahan. I have a question. Thank you, Mr. Chairman. I 
will do this very quickly to try to get some other people in as 
well.
    I wanted to go to Dr. Bor. In 2008, in written testimony 
before Congress, you wrote about the political, cultural, and 
economic oppression of the Baluch people at the hands of the 
Iranian regime. I am interested in hearing what, if anything, 
has changed in the past 4 years; and, secondly, with regard to 
the Baluchistan areas in Iran, how do you see their sentiment 
in terms of being open to working with the West?
    Mr. Bor. I think Baluch in general, whether in Iran or in 
Pakistan, they are very open-hearted. They have welcomed U.S. 
support with open arm. And they have also expressed their 
desire that if Baluchistan become independent to provide the 
U.S. with bases in Gwadar. And, of course, as you know, 
Baluchistan strategically probably is the most important piece 
of the land in the world now, stretching from the Strait of 
Hormuz to Karachi; and that is where 40 percent of the world 
oil passes.
    Unfortunately, the Chinese are building a naval base or 
they are building Gwadar. And even more dangerous for the U.S. 
strategy interest is connecting the overland Karakoram Highway 
to Gwadar, so that instead of being through U.S. Navy in 
Pacific and in Indian Oceans through the Indian Navy so they 
can come directly there, and that is the choke Strait of 
Hormuz. So the Baluch have--historically, in fact they have 
been searching.
    And of course I notice a perfect coincidence of interest 
between Baluch and the U.S. Because Baluch, they don't want the 
pipeline to go from Iran to Pakistan in violation of U.S. 
sanction. The Baluch, of course, they are secular. They are 
against a Pakistan-Taliban alliance because they are secular, 
and they want to fight Taliban. If the U.S. supported Baluch 
they can stop Taliban shelter by ISI and Pakistani Government 
in Baluchistan.
    Mr. Carnahan. Thank you.
    Mr. Rohrabacher. All right. We have time, and I apologize, 
but you never know when votes are going to be called. We have 
about 3 more minutes worth of questions and answers, and I am 
going to grant Louie Gohmert 1 minute. You came in first, 
Louie, so you are first.
    Oh, the Judge has something he has to say. Judge Poe has 1 
minute and then Louie Gohmert.
    Mr. Poe. Thank you for being here.
    I want to say this. I am a great believer in self-
determination for people who believe in it as well. Baluchistan 
I think fits that category. Somebody over there in Baluchistan 
has been reading the Declaration of Independence that gives a 
justification on a moral and legal reason why people can 
separate themselves from abusive governments. So we will see 
how that plays out.
    As far as Pakistan goes, they are the Benedict Arnold in 
the relationship with the United States. Ten years and $20 
billion later, we are still paying them to not look out after 
our interests.
    They persecuted the informant that gave us the information 
about Osama Bin Laden and charged him with treason. I mean, how 
long is it going to take before we get the point?
    We don't need to continue to give American money to 
Pakistan at all, not a dime. And they have proven they don't 
deserve it, and it is not in our national interest.
    And the third comment is the United States, as one of you 
all has said, needs to look to India as a supporter and as an 
ally on not just the economic front but the war on terror as 
well.
    And, lastly, Mr. Peters, you will never make it as a 
diplomat in the State Department.
    Mr. Peters. Congressman, I am proud to be a soldier, not a 
diplomat.
    Mr. Poe. Thank you. I yield back, Mr. Chairman.
    Mr. Rohrabacher. See, it is always great to have Texans 
around. They just step right up.
    And here is another one, Louie Gohmert.
    Mr. Gohmert. Thank you, and I couldn't agree with my fellow 
former judge from Texas more.
    It is greatly disturbing to hear that weapons that we have 
provided to Pakistan have been utilized to create human rights' 
violations. That is particularly disturbing. That is not what 
this Nation is about. And it would seem to me that since we are 
trying to get out of Afghanistan and turn that country over to 
them, the quicker we could stop assisting Pakistan in funding 
the Taliban that we are trying to fight, which is also creating 
human rights' violations against Baluchistan, it sounds like we 
could create a real win for the United States, Baluchistan, 
Baluchs, for people of Afghanistan if we just quit helping 
Pakistan help all of our enemies.
    So I appreciate your testimony. I look forward to anything 
additionally they may have to submit.
    Mr. Rohrabacher. We have 3 minutes before we have to be on 
the floor to vote, so I will give a 30-second summary.
    First of all, thank you to the witnesses. There was a lot 
of trepidation by people before we held this hearing. I got so 
many emails threatening all sorts of crazy things and worrying 
that some people would be represented. We learned a lot by this 
hearing. We put a lot of stuff on the record.
    This is not to plot out some sort of conspiracy. What we 
are here to discuss is start a national dialogue in the open 
about what America's policy should be in this very volatile 
part of the world and where our ideals for human dignity and 
freedom and justice and self-determination, where they fit into 
our policies in that part of the world.
    So we have started the discussion today. I think this 
hearing was a first good step, and it was certainly not a stunt 
on anybody's part. We honestly really were going to try to get 
into these issues.
    So I want to thank you all for coming, and I am sorry we do 
have to run off for our votes right now.
    This hearing is adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
